                  U.S. DEPARTMENT OF THE INTERIOR
                  OFFICE OF INSPECTOR GENERAL


                        Evaluation Report




                  Working Capital
                      Fund



                            Photos Courtesy of Microsoft Clip Art Gallery
No. 2003-I-0056                                                             June 2003
                                                                                     E-IN-0SS-091-02


                United States Department of the Interior
                                   Office of Inspector General
                                          Eastern Region Audits
                                             381 Elden Street
                                                Suite 1100
                                         Herndon, Virginia 20170
                                                                                 June 16, 2003
Memorandum

To:         Assistant Secretary for Policy, Management and Budget

From:       William J. Dolan, Jr.
            Regional Audit Manager, Eastern Region

Subject:    Final Evaluation Report on the Department of the Interior Working Capital Fund
            (No. 2003-I-0056)

        This report presents the results of our evaluation of the Department of the Interior’s Working
Capital Fund (WCF) program activity. We performed the evaluation at the request of the Committee
on Appropriations, Subcommittee on Interior and Related Agencies.

        The Department uses the WCF to provide common administrative services to Bureaus and
offices within the Department and to other federal agencies. Our main findings were that the WCF had
accumulated a $20 million surplus as of September 30, 2001, had not established authorized reserves,
and had deficiencies in its billing process. The Department needs to determine the amounts necessary
to fund authorized reserves and could use a portion of the surplus for this purpose.

        In the May 30, 2003, response to our draft report, the Assistant Secretary for Policy,
Management and Budget concurred with the report’s nine recommendations. However, the response
did not provide sufficient information for us to consider recommendation 6 resolved. Accordingly, we
request that you provide the additional information requested in Appendix 4. Please provide a response
to Mr. Roger LaRouche, Assistant Inspector General for Audits, (MS 5341-MIB) by July 18, 2003.

        The legislation, as amended, creating the Office of Inspector General, (5 U.S.C. App. 3)
requires semiannual reporting to Congress on all audit reports issued, actions taken to implement audit
recommendations, and recommendations that have not been implemented. Therefore, this report will
be included in our next semiannual report.

        We appreciate the cooperation exhibited by the WCF staff and compliment them for taking
timely actions to address the issues brought to their attention during our review. If you have any
questions regarding this report, please contact me at (703) 487-8011.

cc:     Audit Liaison Officer, National Business Center
This Page Intentionally Left Blank
Executive Summary
Department of the Interior Working Capital Fund

                  The Department of the Interior (DOI or Department)
                  established the Working Capital Fund (WCF) in 1950 to
                  finance common support services – such as accounting and
                  contracting – for the Department and its bureaus and offices, as
                  well as other federal departments and agencies. The fund is
                  replenished through billing these federal entities for services
                  provided.

                  The WCF finances the operations of the National Business
                  Center (NBC), which provides products and services; the
                  Office of Aircraft Services (OAS), which operates all aircraft
                  activities; and other DOI management activities such as the
                  Office of the Chief Information Officer, which are provided by
                  the Departmental offices.

                  In an attempt to standardize procedures and simplify
                  operations, the Department merged three of its service centers
                  into the NBC in 1999. During our evaluation, however, we
                  found that NBC continues to operate as three separate
                  components with some of its original redundancies.

                  Other concerns disclosed by our evaluation are summarized
                  below:

                     Ø The WCF accumulated a $20 million surplus as of
                       September 30, 2001. Key WCF officials were unaware
                       of this surplus prior to our evaluation.

                     Ø The NBC planned to increase prices to fund six
                       reserves, four of which we believe are not authorized.
                       In addition, the planned price increases did not consider
                       the $20 million surplus.

                     Ø WCF financial data did not provide enough information
                       to determine whether specific product lines were
                       making or losing money.

                     Ø The WCF was used to fund activities provided by
                       offices that also received direct appropriations.




                                    i
   Ø The WCF did not provide sufficient information to
     customers to facilitate budgeting.

We did find, however, that credit card rebates, which are
collected and managed through the WCF, were used for
authorized activities in accordance with legislative intent.

We made nine recommendations to improve departmental
management and the National Business Center Working
Capital Fund operations.




                  ii
Contents
                                                                                                 Page

      Introduction....................................................................................1
        Background ...................................................................................1
        Objective and Scope......................................................................2

      Results of Evaluation.....................................................................3
       Surplus of $20 Million..................................................................3
       Reserves ........................................................................................6
       Bureau Charges.............................................................................7
       Information to DOI Customers .....................................................9
       Authorized Activities and Credit Card Rebates ..........................10

      Recommendations ........................................................................11

      Office of Assistant Secretary, Policy, Management and Budget
      Response and Office of Inspector General Reply .....................13

      Appendices
        1. NBC Products and Services ................................................17
        2. Methodology and Prior Audit Coverage .............................19
         3. Response to the Draft Audit Report………………………21
        4. Status of Recommendations………………………………33




                                     iii
This Page Intentionally Left Blank




                iv
Introduction
                                  The Working Capital Fund (WCF) was created 1 to provide
    Background                    common administrative and support services efficiently and
                                  economically at cost to the bureaus and offices of the
                                  Department of the Interior (DOI) and other Federal agencies.
                                  The WCF is a revolving fund, which is replenished by
                                  revenues received from customers who are billed for the costs
                                  of services provided.

                                  The WCF finances the operation of the National Business
                                  Center (NBC), which provides products and services; the
                                  Office of Aircraft Services (OAS) 2 , which operates all aircraft
                                  activities; and departmental management activities, which are
                                  provided by the Departmental offices. The NBC was formed
                                  in fiscal year (FY) 1999 with the merger of the Interior Service
                                  Center, located in Washington, D.C.; the Washington
                                  Administrative Service Center, located in Reston, VA; and the
                                  Denver Administrative Service Center, located in Denver, CO.
                                  The NBC is the principal service provider, offering 28 products
                                  and services to its customers (see Appendix 1).

                                  As shown in Figure 1, estimated revenue for the WCF for
                                  FY 2002 was $473 million, 72 percent from NBC services,
                                  23 percent from OAS, and 5 percent from departmental
                                  management activities.

                                                  Figure 1 - WCF Estimated FY 2002
                                                              Revenue
                                        NBC $340 M
                                          (72%)



                                                                                               OAS $110 M
                                                                                                 (23%)



                                                                                      Dept. Mgmt.
                                                                                     activities $23 M
                                                                                           (5%)




1
    43 U.S.C. § 1467 authorized the creation of the working capital fund in the Department of the Interior.
2
    OAS merged with the NBC in FY 2002.




                                                        1
                              The original authorizing legislation limited the WCF to
                              performing work and accepting payment from only Federal
                              sources. In FY 2000, however, the DOI was authorized to
                              retain rebates earned through its purchase card program. This
                              authority became permanent in FY 2001. These rebates,
                              estimated at $6 million for FY 2002, were deposited into the
                              WCF to fund administrative management projects of general
                              benefit to the DOI’s bureaus and offices. These projects were
                              evaluated and prioritized in consultation with the DOI’s
                              Management Initiative Team3 , which earmarks the funds for
                              the highest priority projects. Also, in FY 2001, the WCF was
                              authorized to rent meeting space within the Main Interior
                              Complex to the private sector.

    Objective                 The objective of our evaluation was to determine whether the
                              WCF charged DOI entities and other government age ncies
    and Scope                 equitably and consistently. We also wanted to determine
                              whether customers were provided with sufficient information
                              to plan and budget for WCF charges; whether WCF charges
                              were used for allowable activities; and whether credit card
                              rebates were used appropriately.

                              The scope of our evaluation included a review of WCF
                              procedures for establishing written policies and procedures,
                              including performance goals and measures for fiscal years 2001
                              and 2002. The Office of Aircraft Services (OAS) was excluded
                              from our review because the General Accounting Office
                              recently conducted an audit of the OAS and issued a report in
                              April 2002.

                              The methodology of our evaluation and prior audit/evaluation
                              coverage are detailed in Appendix 2.




3
  The Management Initiative Team is made up of representatives from each DOI bureau. Its role is to
recommend projects to be funded with bank card rebates to the Assistant Secretary for Policy, Management
and Budget.




                                                   2
  Results of Evaluation
               Improvements are needed in the administration of the WCF.
               Specifically, we found that:

                  Ø Key WCF officials were unaware of an accumulated
                    $20 million surplus as of September 30, 2001.

                  Ø The WCF did not establish authorized reserves for
                    accumulated annual leave and equipment replacement.
                    Furthermore, the NBC planned to implement four other
                    reserves within the WCF, which we believe are not
                    authorized, and then planned to raise prices to fund all
                    six reserves.

                  Ø The WCF was used to fund activities provided by
                    offices that also received direct appropriations.

                  Ø The WCF did not provide a sufficient level of
                    transparency in supplying information to customers.

               Despite these weaknesses, the WCF appropriately charged
               customers for allowable activities such as budget, procurement,
               personnel management, finance, and accounting services. In
               addition, the WCF’s exceptional operation of the bankcard
               rebate program maximized purchase card rebates awarded to
               the Department. As a result, the WCF collected $6 million in
               rebates used to fund activities such as diversity initiatives and
               information technology security.

               The WCF had accumulated a $20 million surplus as of
Surplus of     September 30, 2001. WCF officials were unaware of this
               surplus prior to our evaluation. An analysis shows that
$20 Million    approximately $17 million of the surplus was accumulated
               prior to the organizational merger in 1999, and an additional
               $3 million was accumulated in FYs 2000 and 2001. Since the
               WCF tracks revenue and expenses by billing type, we found
               that DOI bureaus accounted for approximately $14 million, or
               70 percent, of the $20 million surplus. DOI officials were
               unable to provide an explanation or analysis of the surplus. In
               the absence of any other credible explanation afforded by the
               Department, we believe that charging customers for more than
               the cost of delivering services may have been the principle
               cause of the surplus. We also found instances where customers




                                 3
                 were charged less than the cost of delivering services. We
                 attribute this overcharging and undercharging to an accounting
                 system that cannot track costs and revenues by products and
                 services and the lack of a standard billing process.

 Accurate        The WCF uses the Department’s Federal Financial System
 cost            (FFS) to record its revenue and expenses. Although the FFS
 information     contains data to track revenue and expenses by billing type, it
 on business     does not contain detailed data to do the same by products and
 lines lacking   services. Lacking accurate cost information on its business
                 lines, the WCF cannot identify which of its products and
                 services are losing money and, therefore, cannot determine
                 whether to increase prices or eliminate products and services.
                 A report prepared for management by the WCF’s Cost
                 Accounting Team stated that “the current accounting structure,
                 current accounting application, and current procedures for
                 recording employee time and attendance would not be adequate
                 to support Activity Based Costing.” Management recognizes
                 these weaknesses in the accounting system and will need to
                 address them before implementing an Activity Based Costing
                 system.

Standardized     The WCF does not have a standardized billing process.
                 Although the WCF merged its service centers in 1999, it
Billing
Process          continues to function as three separate organizations using
                 three separate billing methods:
Needed
                  Ø     Direct Billing - Services, such as printing orders, are
                        billed through a time and materials reimbursable
                        support agreement. This method is used to bill
                        customers outside the department.

                  Ø     Centralized Billing - Services, such as building
                        security, are billed at fixed prices. This method is used
                        to bill DOI customers.

                  Ø     Fee for Service - Services are billed at pre-established
                        unit costs. For example, payroll is billed on a price per
                        W-2. This method is used to bill DOI customers and
                        customers outside of the department.




                                   4
Although revenue from direct billing (customers outside the
department) was similar to revenue from centralized billing
(DOI customers), DOI customers paid the majority of the
surplus, as shown in Figure 2.

  Figure 2 - Revenue and Surplus by Billing Type
            For 2001 (in millions rounded)
            160                                             141

                                                                       Revenue
                                          109
            120         103
                                                                       Surplus
  Dollars



             80



             40                                 14
                               0.5                                6

              0
                  Direct Billing     Centralized     Fee for Service
                                       Billing




We determined that the billing method used to charge DOI
customers is based on estimates that are adjusted infrequently,
whereas bills sent to customers outside the department are
more closely related to actual costs.

In addition to using three different billing methods, the WCF is
inconsistent in recovering administrative costs. Some billings
did not include a charge for administrative costs, others
charged a predetermined amount for administration, and still
others used an administrative (indirect cost) rate. In cases
where a rate was used, the WCF could not determine whether
the rate effectively recovered administrative costs.

These problems occurred because the WCF had not developed
and implemented a single set of policies and procedures for
billing customers and recovering administrative costs.
Examples of billing errors noted during our review include:

      Ø The WCF charged mail and messenger services to the
        Advisory Council for Historic Preservation in the Main
        Interior Building in FY 2002. Although the Council
        had occupied space in the Main Interior Building at one
        time, it had moved its offices to another location during
        FY 2001.



                           5
                                    Ø The WCF charged DOI bureaus and offices differently
                                      than external clients for its drug-testing program. The
                                      WCF charged its external clients an administrative fee
                                      that it did not charge the DOI bureaus.

                                    Ø The WCF charged only DOI bureaus and offices for the
                                      costs of updating a financial accounting system
                                      problem. These costs should have been charged
                                      equally to all WCF customers that benefited from the
                                      updated system.

                                    Ø The WCF charged customers for automated data
                                      processing based on outdated usage information.


                               The WCF had not established authorized 4 reserves for accrued
      Reserves                 annual leave and equipment replacement. Instead, the WCF
                               financed these costs through current operations. During the
                               evaluation, WCF officials informed us that they planned to
                               establish six reserves - the two specifically authorized by
                               legislation and four others for research and development,
                               capital investment, contingencies, and shut down. To finance
                               the six reserves, the WCF plans to increase prices to its
                               customers by $38 million over a 5-year period.

                               In response to our concerns about the four additional reserves,
          Planned              WCF officials obtained an opinion from the Office of the
          reserves             Solicitor (SOL). The SOL opined that reserves were not
          not                  limited to those specifically identified in the authorizing
          authorized           legislation for accrued annual leave and depreciation of
                               equipment, but also may encompass other reserves. The OIG
                               Office of General Counsel (OGC) disagreed with the SOL
                               analysis. OGC found the purpose of the fund and those
                               reserves that may be collected by the WCF are restricted by the
                               precise language found in 43 U.S.C.§§ 1467 and 1468.

                               We contacted the Departments of the Treasury, State, and
                               Justice to inquire about the reserves they established for their
                               working capital fund operations. These agencies either
                               established reserves only for costs that are specifically
                               authorized by legislation, or they annually funded the costs

4
  43 U.S.C. § 1467 states that the “fund shall be reimbursed from available funds of bureaus, offices, and
agencies for which services are performed at rates which will return in full all expenses of operation,
including reserves for accrued annual leave and depreciation of equipment.”




                                                     6
          through current operations. The results of our inquiries are
          summarized below:

           Ø     The Department of the Treasury is authorized to
                 establish reserves for accrued annual leave and
                 depreciation of plant and equipment. It has not,
                 however, established any reserves for these items and
                 recovers these costs through current operations. Also,
                 excess revenues over expenditures (surplus) are
                 returned to their customers.

           Ø     The Department of State is authorized to establish
                 reserves for accrued annual leave and depreciation of
                 plant and equipment. However, the Department of
                 State funds these costs through current operations. If
                 the fund collects too much money, it reduces the rates
                 charged for services in the succeeding year.

           Ø     The Department of Justice is authorized and has
                 established reserves for depreciation of plant and
                 equipment, improvement and implementation of the
                 Department’s financial management and
                 payroll/personnel systems, and development and
                 implementation of law enforcement or litigation related
                 automated data processing systems.

          We believe that the WCF should (1) establish reserves only for
          accrued annual leave and equipment replacement, as
          authorized, (2) determine the amounts necessary to fund each
          reserve, and (3) fund the authorized reserves with part of its
          $20 million surplus before considering price increases.


          The WCF charged the bureaus $12 million for departmental
Bureau    management activities. These charges, which are separate
Charges   from the NBC, were in addition to $71 million appropriated by
          the Congress. We raise this issue because it appears to conflict
          with appropriation language, which states that “no programs
          funded with appropriated funds in the Departmental
          Management … may be augmented through the Working
          Capital Fund or the Consolidated Working Fund.”

          Based on our review of budget justifications, we were able to
          identify charges of $8.5 million to bureaus and offices for
          specific activities that were also funded by direct




                            7
                appropriations of $8.8 million to Departmental management, as
                follows:

                                                    Amounts (In Millions)
                            Activity              Appropriation   Charges

                   Office of the CIO                   $2.9             $5.5
                   Risk & Public Safety                 1.4              1.5
                   Planning and Performance              .4               .7
                   Office of Communication              1.2               .7
                   Office of Financial Mgt.             2.9               .1

                         Totals                        $8.8             $8.5


                DOI management officials believe that there is a distinction
Method of
                between the funding of policy and oversight [Department
funding
                management] versus funding activities which are operational in
Departmental
                nature. They also believe these factors are clearly disclosed in
Management
                the budget justifications for Departmental Management and the
needs
                WCF. They further advised that “in all likelihood, such
clarification
                services have existed since the inception of the fund in the
                1950s.” Additionally, we were told that this method of funding
                was presented “with the [Appropriations] Committee’s
                concurrence” in the 1997 budget justification, in conjunction
                with a reorganization of WCF activities. The WCF, however,
                was unable to provide documentation to support this position.

                We do not believe the information is clearly disclosed in the
                budget justification. For example, we reviewed the FY 2002
                budget amounts pertaining to the program activities for the
                CIO contained in the FY 2003 budget justification for
                Departmental Management. The budget justification identified
                a direct appropriation of $2.9 million. It does not identify an
                additional $5.5 million, which the CIO will receive through
                WCF charges to the bureaus and offices.

                The budget for the WCF is presented 80 pages after the budget
                for the CIO and identifies activities, amounts, and full time
                equivalent (FTE) positions funded through the WCF for NBC,
                other WCF activities, and OAS. For the other WCF activities,
                there are 18 individual activities totaling approximately
                $12 million. Some of the activities clearly related to
                information technology (IT), such as IT security and IT
                initiatives. However, the narrative descriptions of these and the
                other activities do not specify that any of them will be used to




                                  8
              finance the operations of the CIO. To identify the $5.5 million,
              one would have to determine which of the 18 activities (we
              later found that there are six) were funding the CIO.

              We believe that DOI officials should discuss this method of
              funding with the House and Senate Subcommittees on
              Appropriations for Interior and Related Agencies to ensure that
              all parties are clearly aware of how activities are funded and
              clarify future budget justifications.

              The WCF does not provide a comprehensive report that
Information   identifies which services are mandatory or optional, the amount
to DOI        of the services being provided, or the methodology used to
Customers     charge the bureaus. The billings described only general
              categories and did not provide explanations for adjustments to
              initial cost estimates. For example, the Management and
              Technical Services Division is listed as a single line item in the
              WCF centralized billing. We determined that this line item is
              actually charged as an administrative cost and consists of the
              Division Chief and Secretary, Planning and Performance
              Branch, Facilities Group, Logistics, Mail Room Group, and
              MSD Support Services.

              In another example, the centralized billing included a line item
              for Capital Planning without any description. In response to
              our inquiry, WCF officials provided a document that states,
              “To comply with the Clinger-Cohen Act of 1996, the agency
              must maintain a robust Information Technology Capital
              Planning and Investment Control program.” This does not
              describe to customers, however, what services they receive
              under Capital Pla nning.

              Further, there was no distinction between optional and
              mandatory services. As a result, the bureaus and offices could
              not make informed decisions regarding the nature of services
              available to them or determine whether or not they used or
              needed the services for which they were billed.

              The bureaus use the WCF's budget estimates to request
              appropriated funds. If these estimates do not accurately
              represent future costs, the bureaus must fund the difference
              with funds allocated for other activities. For example, in
              FY 2003, the WCF billed three DOI bureaus an additional
              $2.2 million over original estimates: the Office of the
              Secretary, $880,000; the National Park Service, $690,000; and
              the Bureau of Land Management, $614,000. In order to




                                9
             compensate for this increase, the bureaus used funds allocated
             for other activities. These increases have created skepticism
             and concern among the bureaus as to whether the WCF charges
             fairly. As a result of our concerns, the Deputy Assistant
             Secretary for Budget initiated monthly meetings with DOI
             bureaus and offices to promote a new level of transparency.

             We did not identify any instances where the WCF charged
Authorized   bureaus and offices for activities that were not authorized.
Activities   The WCF charged customers for allowable activities such as
             budget, procurement, personnel management, finance, and
and Credit   accounting. In addition, the WCF’s operation of the bankcard
Card         rebate program maximized purchase card rebates awarded to
Rebates      the Department. We found that the credit card rebates were
             used for the general benefit of the bureaus. Credit card rebates
             were $6 million for FY 2001 and are expected to be $6 million
             for FY 2002. Projects funded from credit card rebates include
             diversity initiatives, payroll enhancements, audit support, and
             IT security.




                              10
Recommendations
          To improve the WCF, we recommend that the Assistant
          Secretary for Policy, Management and Budget:

             1. Implement a cost accounting system to track costs and
                revenues by product line.

             2. Develop and implement written policies and procedures
                regarding recovery of costs by product lines to prevent
                over and under charging of customers.

             3. Establish equitable administrative cost rates.

             4. Establish reserves only as specified in authorizing
                legislation. After appropriate financial analys is, set
                limits for the reserves.

             5. Fund authorized reserves with existing surplus.

             6. Discuss with the House and Senate Subcommittees on
                Appropriations for Interior and Related Agencies the
                current method of funding for and the clear disclosure
                of Departmental management activities in the budget
                justifications.

             7. Use current data to provide customers with the most
                accurate information available.

             8. Provide the bureaus with a list of services that are
                mandatory and those that are optional.

             9. Provide a detailed explanation to the bureaus and
                offices when original billings are revised. At a
                minimum, the explanation should include a justification
                for the revision and a description of additional services
                or enhancements to be provided.




                           11
This Page Intentionally Left Blank




               12
Office of Assistant Secretary, Policy,
Management and Budget Response and
Office of Inspector General Reply
              The May 30, 2003, response (Appendix 3) generally agreed
              with the nine recommendations. The response also included
              suggested changes to the report and additional information that
              we considered and included as appropriate. Although we
              included many of the suggested changes recommended by the
              response, there were three substantial changes that we did not
              make. These changes addressed the use of the term “surplus,”
              the establishment of reserves, and billing methods. The
              Assistant Secretary’s comments in these areas and our replies
              are summarized below.

              Surplus
Assistant     The response disagreed with our use of the term “surplus,”
Secretary’s   requesting we delete the words entirely from the body of the
Comment       report and Recommendation 5 and replace the term with
              “cumulative results of operations.” The response stated that
              surplus implies that the WCF contains cash in excess of the
              Department’s needs. In support of its position, the response
              stated:

                 . . . the report fails to mention that the audited
                 financial statement indicates that nearly $17 million
                 has been identified for equipment depreciation and
                 replacement. . . . Second, the $20 million “surplus”
                 reported in the study only includes four sub-
                 accounts which have positive values and did not
                 consider the overall impact that a possible reduction
                 in resources might have on the entire fund. . . .
                 Finally, the report, of necessity, is based on funding
                 levels reported at a given point in time. Most of the
                 data in the report is based on FY [fiscal year] 2001
                 end of year data, yet we are today operating in the
                 eight month of FY 2003, some 20 months later.


Office of     Describing the $20 million as a surplus is appropriate,
              notwithstanding that our calculation of the amount was based
Inspector
              on an analysis of the WCF’s fiscal year 2001 reported
General       cumulative results of operations. The WCF’s reported
Reply         cumulative results of operations for fiscal year 2001 totaled




                               13
                               approximately $80 million. We reduced the $80 million by
                               amounts reported for unfunded liabilities (accrued annual
                               leave) and for property, plant and equipment, which left a
                               balance of $36.5 million. This amount represents the excess of
                               revenue over expenses that had accumulated since inception of
                               the WCF. We made further reductions related to revenues
                               attributable to the credit card rebate program ($7 million) and
                               to the Office of Aircraft Services ($12 million). Finally, we
                               added $2.1 million, representing excess WCF revenues over
                               expenses for fiscal 2001, to the $17.5 million balance. Calling
                               this adjusted amount cumulative results of operations would be
                               inaccurate because the $20 million surplus is attributed to only
                               excess revenues over expenditures, whereas cumulative results
                               of operations would additionally include unfunded liabilities
                               and the capitalized value of equipment less depreciation.

                               We did not reduce the $20 million by reported accumulated
                               depreciation5 (approximately $14 million for fiscal year 2001)
                               because accumulated depreciation does not directly relate to
                               future equipment replacement needs. The $14 million
                               represents equipment costs that have been expensed in the
                               current and prior years and has little relationship to the amount
                               that should be established as a reserve. The NBC did not
                               provide us with any information or analysis on future
                               equipment replacement needs. Equating accumulated
                               depreciation to a reserve for equipment replacement is
                               unrealistic because all capitalized equipment is depreciated,
                               whereas, only some of the equipment will be replaced in a
                               given year. A reserve for annual equipment replacement would
                               be a much lesser amount. Further, the WCF was paying for
                               annual equipment replacement with funds recovered through
                               customer billings.

                               Regarding the comment that our study included “only four
                               sub-accounts which have positive values,” we disagree. Our
                               analysis considered all funds that had a balance whether
                               positive or negative.

                               In regard to the period covered by our analysis, we used the
                               most recent audited financial data (fiscal year 2001) that was
                               available at the time of our review. Subsequent to the
                               completion of our analysis, the Department issued its annual
                               financial report for fiscal year 2002. Our review of audited
                               financial data in the 2002 report notes that the WCF had

5
  The accumulated depreciation account is used to accumulate the depreciation to date for all capital assets
less those that were sold, traded or scrapped.




                                                    14
              accumulated an additional $2 million of excess revenue over
              expenditures.


Assistant     Establishment of Reserves
Secretary’s   The response suggested we revise the report statement (page
              6), “The WCF had not established authorized reserves for
Comment       accrued annual leave and equipment replacement.” The
              response suggested we state, “WCF managers had not
              established an auditable process for reserves for equipment
              replacement.” The response noted that accrued annual leave is
              a liability of the WCF and has already been taken into account
              when arriving at cumulative results of operations. To reserve
              any additional cash for this would constitute double counting.
              It is an auditable process for legally allowed capital
              replacement reserves that is the missing piece.


              At the time of our review, the WCF had not established
Office of     reserves for accrued annual leave or equipment replacement
Inspector     because they were paid from current operations on an as
General       needed basis. There was not an auditable process because the
Reply         WCF had not established any reserve accounts. In fact, before
              we identified the $20 million, WCF officials informed us that
              they had not established any reserves for accumulated annual
              leave or equipment replacement.

              We agree with the Assistant Secretary’s response, that if the
              accrued annual leave liability is to be used as the reserve
              amount, a separate reserve should not be established.
              However, this policy needs to be established and disclosed in
              the financial statements because we were unable to identify
              that accrued annual leave liability was included in the WCF’s
              balance sheet for FY 2001 and FY 2002.

              If the WCF decides to fund equipment replacement through a
              reserve, an analysis would need to be performed to determine
              the cost of equipment that needs to be replaced. The WCF
              would then need to identify this amount as a reserve in the
              financial statements. The WCF should not use the accumulated
              depreciation amount included in the financial statements
              because it is an inflated amount that includes fully depreciated
              equipment still being used and equipment that will not be
              replaced until future years.




                               15
                  Billing Methods
    Assistant     The response requested that we delete the statement and related
    Secretary’s   figure on page 5 of the report, “A lthough revenue from direct
    Comment       billing (customers outside the Department) was similar to
                  revenue from centralized billing (DOI customers), DOI
                  customers paid the majority of the surplus, as shown in
                  figure 2.” The response stated that the revenue and expense by
                  fund should be considered non-severable, especially for the
                  four funds in this analysis. Therefore, cumulative results of
                  operations should not be considered separately.


                  We disagree with deleting the sentence as requested. We
    Office of     believe that the three billing methods should be shown
    Inspector     separately to demonstrate that there is a problem with the
    General       centralized billing method. The statement in the report and
    Reply         related graph clearly show that payments made by DOI
                  customers represent the majority of the surplus. As stated
                  previously, cumulative results of operations are comprised of a
                  number of items. This statement in the report concerns the
                  portion of the cumulative results of operations that represents
                  excess revenues over expenditures.




p




                                   16
                                                                  Appendix 1
NBC Products and Services

  Ø   Accounting Operations               Ø   Executive Information Services
  Ø   Acquisition Services                Ø   FHRIS
  Ø   ADP Services                        Ø   Federal Financial System
  Ø   Business Opportunities              Ø   Federal Payroll System
  Ø   Contract Administration             Ø   FPPS 2000
  Ø   Creative Communication              Ø   Fiscal Services
      Services                            Ø   Hyperion Enterprise
  Ø   DOI University                      Ø   Independent Validation &
  Ø   Drug & Alcohol Testing                  Verification Services
  Ø   Electronic Commerce                 Ø   Legacy Plus
  Ø   Employee & Public Services          Ø   Momentum
  Ø   Enhanced Fixed Assets               Ø   Organization Development
  Ø   Performance Support Services        Ø   T&A System
  Ø   Procurement Systems                 Ø   Travel Manager
  Ø   Quarters Programs                   Ø   Web Development & Hosting




                                     17
This Page Intentionally Left Blank




               18
                                                                Appendix 2


Methodology and Prior Audit Coverage
              Our evaluation was conducted in accordance with the President’s
Methodology   Council on Integrity and Efficiency’s Quality Standards for
              Inspections. Accordingly, we conducted tests or reviews of
              records that we considered necessary under the circumstances.
              We evaluated the internal controls over the WCF’s administration
              and operation and found significant weaknesses relating to the
              lack of policies and procedures affecting the control environment.

              We reviewed the Department’s fiscal year 2001 Government
              Performance and Results Act annual performance report and
              determined that none of the goals and measures were related to
              our objective.

              In addition, we reviewed relevant financial reports on the WCF
              billings and budgetary reports for FYs 2000 and 2001 and
              contacted selected Departments that had WCFs to determine
              what, if any, reserves they maintained.

              We performed site visits in Washington, D.C., Reston, VA, and
              Denver, CO.

Prior Audit   We found that the OIG had not performed an audit on the
              Department of the Interior’s Working Capital Fund in the last
Coverage      5 years. We did find that the General Accounting Office had
              issued a report dated April 2002 on the Office of Aircraft
              Services. The report stated that the OAS has not fully recovered
              the costs associated with the aviation program. From fiscal years
              1997 through 2000, OAS had charged bureaus about $4 million
              less than actual costs. GAO has not issued a report on the
              Department of the Interior Working Capital Fund in the last
              5 years.




                                19
This Page Intentionally Left Blank




               20
                           Appendix 3
                           Page 1 of 12




Response to Draft Report




                     21
     Appendix 3
     Page 2 of 12




22
     Appendix 3
     Page 3 of 12




23
     Appendix 3
     Page 4 of 12




24
     Appendix 3
     Page 5 of 12




25
     Appendix 3
     Page 6 of 12




26
     Appendix 3
     Page 7 of 12




27
     Appendix 3
     Page 8 of 12




28
     Appendix 3
     Page 9 of 12




29
     Appendix 3
     Page 10 of 12




30
     Appendix 3
     Page 11of 12




31
     Appendix 3
     Page 12 of 12




32
                                                                         Appendix 4



Status of Recommendations
  Recommendations                 Status              Action Require d

  1,2,3,4,5,7,8 and 9   Resolved, Not            No further response to the
                        implemented              Office of Inspector General
                                                 is necessary. The
                                                 recommendations will be
                                                 referred to the Department’s
                                                 Audit Followup Official for
                                                 tracking of implementation.

          6             Management concurs;      Provide an action plan,
                        additional information   including a target date and
                        needed                   the title of the official
                                                 responsible for seeking
                                                 clarification from the House
                                                 and Senate Subcommittees
                                                 on Appropriations.




                                    33
This Page Intentionally Left Blank




            34
                             How to Report
                Fraud, Waste, Abuse, and Mismanagement
Fraud, waste, and abuse in Government are the concern of everyone – Office of Inspector
General staff, Departmental employees, and the general public. We actively solicit
allegations of any inefficient and wasteful practices, fraud, and abuse related to
Departmental or Insular Area programs and operations. You can report allegations to us
by:

             Mail:        U.S. Department of the Interior
                          Office of Inspector General
                          Mail Stop 5341-MIB
                          1849 C Street, NW
                          Washington, DC 20240

             Phone:       24-Hour Toll Free          800-424-5081
                          Washington Metro Area      202-208-5300
                          Hearing Impaired           202-208-2420
                          Fax                        202-208-6081
                          Caribbean Region           340-774-8300
                          Northern Pacific Region    671-647-6051

             Internet:    www.oig.doi.gov/hotline_form.html




                         U.S. Department of the Interior
                           Office of Inspector General
                               1849 C Street, NW
                             Washington, DC 20240
                                    www.doi.gov
                                   www.oig.doi.gov
